NO. 20-601

In the

Supreme Court of the United States
________________
DANIEL CAMERON, ATTORNEY GENERAL, ON BEHALF OF
THE COMMONWEALTH OF KENTUCKY,
v.

Petitioner,

EMW WOMEN’S SURGICAL CENTER, P.S.C., ON BEHALF
OF ITSELF, ITS STAFF, AND ITS PATIENTS, ET AL.,
________________

Respondents.

On Writ of Certiorari to the United States
Court of Appeals for the Sixth Circuit
________________
BRIEF OF AMICI CURIAE PHILIP E. BERGER,
PRESIDENT PRO TEMPORE OF THE NORTH
CAROLINA SENATE, AND TIMOTHY K. MOORE,
SPEAKER OF THE NORTH CAROLINA HOUSE OF
REPRESENTATIVES IN SUPPORT OF PETITIONER

David H. Thompson
Counsel of Record
Peter A. Patterson
Nicole J. Moss
COOPER & KIRK, PLLC
1523 New Hampshire
Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
dthompson@cooperkirk.com
June 21, 2021

Counsel for Amici Curiae

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES....................................... ii
INTEREST OF AMICI CURIAE ................................ 1
SUMMARY OF ARGUMENT .................................... 2
ARGUMENT ............................................................... 4
CONCLUSION .......................................................... 17

ii
TABLE OF AUTHORITIES
Page
CASES
Arizonans for Official English v. Arizona,
520 U.S. 43 (1987) .............................................. 6, 7
Cooper v. Berger, 809 S.E.2d 98 (N.C. 2018) ........... 15
Gregory v. Ashcroft, 501 U.S. 452 (1991) .................... 6
Hollingsworth v. Perry, 570 U.S. 693 (2013) .............. 6
Int’l Union, United Auto., Aerospace & Agric.
Implement Workers of America AFL-CIO,
Local 283 v. Scofield, 382 U.S. 205 (1965) ............ 4
Karcher v. May, 484 U.S. 72 (1987) ............................ 7
Maine v. Taylor, 477 U.S. 131 (1986) ......................... 6
Maryland v. King, 567 U.S. 1301 (2012) .................... 6
N.C. State Conf. of NAACP v. Berger,
__ F.3d __, 2021 WL 2307483
(4th Cir. June 7, 2021) ............... 1, 3, 10, 12, 13, 14
N.C. State Conf. of NAACP v. Cooper,
397 F. Supp.3d 786 (M.D.N.C. 2019) .................. 15
N.C. State Conf. of NAACP v. Raymond,
981 F.3d 295 (4th Cir. 2020) ............................ 4, 16
North Carolina v. N.C. State Conf. of NAACP,
137 S. Ct. 1399 (2017) .................................. 3, 4, 15
Northeast Ohio Coalition for Homeless
& Service Employees Intern. Local Union,
Local 1199 v. Blackwell, 467 F.3d 999
(6th Cir. 2006) ...................................... 3, 10, 11, 13




iii
Planned Parenthood of Wisconsin, Inc. v. Kaul,
942 F.3d 793 (7th Cir. 2019) ...................... 3, 12, 14
Stuart v. Huff, 706 F.3d 345 (4th Cir. 2013) ............ 12
Trbovich v. United Mine Workers of Am.,
404 U.S. 528 (1972) .................................. 7, 8, 9, 10
Van Buren v. United States,
141 S. Ct. 1648 (2021) .......................................... 14
Virginia House of Delegates v. Bethune-Hill,
139 S. Ct. 1945 (2019) ........................................ 2, 7
CONSTITUTIONS, STATUTES, AND RULES
N.C. CONST. art. VI, § 3(2) ........................................ 15
N.C. GEN. STAT. § 1-72.2(b) ................................... 1, 13
N.C. GEN. STAT. § 120-32.6(b) ................................... 13
N.C. GEN. STAT. § 163-19(b) ...................................... 15
N.C. GEN. STAT. § 163-28 .......................................... 15
Fed. R. Civ. P. 24(a)..................................................... 4
OTHER AUTHORITIES
Brief of Governor Roy Cooper as Amicus Curiae
Supporting Plaintiffs-Appellees and Affirmance,
N.C. State Conf. of NAACP v. Raymond,
2020 WL 4201325 (4th Cir. July 20, 2020) ......... 16
Governor Cooper Vetoes Voter ID Bill, Signs Two
Additional Bills Into Law (Dec. 14, 2018),
https://bit.ly/3wzqWL3 ......................................... 16

1
INTEREST OF AMICI CURIAE 1
Amicus Philip E. Berger is the President Pro
Tempore of the North Carolina Senate and Amicus
Timothy K. Moore is the Speaker of the North
Carolina House of Representatives. North Carolina
law provides that Amici “as agents of the State, by and
through counsel of their choice, including private
counsel, shall jointly have standing to intervene on
behalf of the General Assembly as a party in any
judicial proceeding challenging a North Carolina
statute.” N.C. GEN. STAT. § 1-72.2(b). Despite this
clear grant of authority, the en banc Fourth Circuit,
by a 9–6 vote, recently affirmed a district court
decision applying a strong presumption that state
election officials are adequate representatives of the
State’s interest in defending litigation challenging the
State’s voter ID law and denying Amici’s right to
intervene in the litigation. See N.C. State Conf. of
NAACP v. Berger, __ F.3d __, 2021 WL 2307483 (4th
Cir. June 7, 2021) (en banc). Amici plan soon to file a
petition for certiorari seeking review of the Fourth
Circuit’s decision, which implicates a circuit split in
how courts approach motions by state-designated
agents to intervene alongside other state officials in
litigation challenging state laws. The Sixth Circuit
decision under review also concerns the authority of a
1 Pursuant to SUP. CT. R. 37.3(a), amici certify that all
parties have consented to the filing of this brief. Pursuant to SUP.
CT. R. 37.6, amici certify that no counsel for any party authored
this brief in whole or in part, no party or party’s counsel made a
monetary contribution to fund its preparation or submission, and
no person other than amici or their counsel made such a
monetary contribution.

2
state-designated agent to intervene in litigation, and
Amici have an interest in ensuring that this Court
appropriately protects the right of such agents to
intervene in litigation.
SUMMARY OF ARGUMENT
The question presented in this case is whether
a state attorney general vested with the power to
defend state law should be permitted to intervene
after a federal court of appeals invalidates a state
statute when no other state actor will defend the law.
As Attorney General Cameron has ably explained, the
answer to that question is yes, and the Sixth Circuit
was wrong to conclude otherwise.
Although the Sixth Circuit erred in denying
Attorney General Cameron’s motion to intervene on
timeliness grounds, there is at least one aspect of the
Sixth Circuit’s decision that this Court should not
disturb: the underlying assumption that there would
have been no presumption against Attorney General
Cameron intervening in the case before the Secretary
of Kentucky’s Cabinet for Health and Family Services
stopped defending Kentucky HB 454. Indeed, a State’s
authority “to designate agents to represent it in
federal court,” Virginia House of Delegates v. BethuneHill, 139 S. Ct. 1945, 1951 (2019), means that it would
be error to presume that a state-designated agent has
no right to intervene simply because another state
official already is in the case. The Sixth Circuit
accordingly applied no such presumption in holding
that the Attorney General of Ohio had a right to
intervene on behalf of the State and its General
Assembly in a case in which the Ohio Secretary of
State—represented by the Attorney General—already

3
was a party and was defending the challenged state
law. See Northeast Ohio Coalition for Homeless &
Service Employees Intern. Local Union, Local 1199 v.
Blackwell, 467 F.3d 999, 1009 (6th Cir. 2006).
While the Sixth Circuit rightly has held that there
is no presumption against the right of a statedesignated agent to intervene when another state
official is in a case, the same unfortunately is not true
of the Fourth and Seventh Circuits. Those courts
erroneously impose strong presumptions against
allowing intervention in such circumstances, even
when state law demonstrates that the State itself
deems the existing parties inadequate to represent
the State’s interests fully. See Berger, 2021 WL
2307483, at *14 (en banc); Planned Parenthood of
Wisconsin, Inc. v. Kaul, 942 F.3d 793, 799 (7th Cir.
2019).
Amici recently were on the losing end of the
Fourth Circuit’s case law on this subject, with the en
banc court by a 9–6 vote affirming a district court
decision denying intervention in a case challenging
North Carolina’s voter ID law. It did so despite North
Carolina law making Amici necessary to the defense
of the State’s interests, the defendant election officials
indicating in parallel state-court litigation that they
had a primary purpose simply of determining what
law would apply, and the implacable opposition to
voter ID of the Governor who controls those election
officials—opposition that led him shortly after taking
office to oppose this Court’s review of a Fourth Circuit
decision invalidating North Carolina’s prior voter ID
law, see North Carolina v. N.C. State Conf. of NAACP,
137 S. Ct. 1399 (2017) (Statement of Roberts, C.J.,

4
respecting denial of certiorari), and to file an amicus
brief in the Fourth Circuit supporting plaintiffs’
attack on the State’s current voter ID law, see Brief of
Governor Roy Cooper as Amicus Curiae Supporting
Plaintiffs-Appellees and Affirmance, N.C. State Conf.
of NAACP v. Raymond, 2020 WL 4201325 (4th Cir.
July 20, 2020).
Amici plan to seek this Court’s review to resolve
the split in the circuits over how to analyze attempted
intervention by state-authorized agents when other
state officials are in a case. They file this brief to
inform the Court of this issue and to ensure this case
is resolved with the knowledge that it soon will be
presented to the Court.
ARGUMENT
I.
Rule 24 of the Federal Rules of Civil
Procedure governs intervention in district court, and
its principles inform intervention in appellate courts.
See Int’l Union, United Auto., Aerospace & Agric.
Implement Workers of America AFL-CIO, Local 283 v.
Scofield, 382 U.S. 205, 217 n.10 (1965). Rule 24(a)
provides that, “On timely motion, the court must
permit anyone to intervene who . . . claims an interest
relating to the property or transaction that is the
subject of the action, and is so situated that disposing
of the action may as a practical matter impair or
impede the movant’s ability to protect its interest,
unless existing parties adequately represent that
interest.” Rule 24 thus guarantees a right to intervene
to parties who timely seek to protect an interest that
may be impaired by the action and that is not
adequately represented by the existing parties.

5
In this case, the Sixth Circuit erroneously held
that Attorney General Cameron did not act quickly
enough when he sought to intervene mere days after
the Secretary of Kentucky’s Cabinet for Health and
Family Services, Eric Friedlander, informed him that
he would not seek further review of a decision
affirming
a
permanent
injunction
against
enforcement of a Kentucky law regulating abortion,
HB 454. See JA 236–37. A necessary premise of that
holding must be that it would not have been
presumptively improper for Attorney General
Cameron to intervene before the Secretary made
known his plans to discontinue defense of the State
law he was charged with implementing and enforcing.
That is because if Secretary Friedlander’s presence
presumptively would have defeated any attempt by
Attorney General Cameron to intervene, there would
be no conceivable basis for asserting that Attorney
General Cameron’s attempt to intervene only after
Secretary Friedlander discontinued his defense came
too late.
As Attorney General Cameron explains in his
brief, the Sixth Circuit’s holding that he did not act in
a timely manner, and therefore that Kentucky must
suffer the permanent injunction of one of its laws
based on the litigation decisions of a single State
official, both disrespects the Commonwealth’s
sovereign interest in the validity of its statutes and is
contrary to normal intervention principles. But in
correcting this error, the Court should be careful not
to give any impression that there would have been a
presumption against Attorney General Cameron
intervening had he sooner sought to enter the case as
a party. The Rule 24 factors, interpreted in

6
conjunction with this Court’s precedent and the
sovereign authority of the States to designate agents
to represent their interests in federal court, foreclose
any such presumption.
Interest in the Litigation. When a state statute is
challenged in litigation, the litigation implicates a
profound interest: that of a State and its people in the
validity of state law. “A State clearly has a legitimate
interest in the continued enforceability of its laws.”
Maine v. Taylor, 477 U.S. 131, 137 (1986). Indeed,
Justices of this Court repeatedly have stated that “any
time a State is enjoined by a court from effectuating
statutes enacted by representatives of its people, it
suffers a form of irreparable injury.” Maryland v.
King, 567 U.S. 1301, 1303 (2012) (Roberts, C.J., in
chambers) (quoting New Motor Vehicle Bd. of Cal. v.
Orrin W. Fox Co., 434 U.S. 1345, 1351 (1977)
(Rehnquist, J., in chambers)).
Because states are incorporeal entities that
cannot speak for themselves, “a State must be able to
designate agents to represent it in federal court.”
Hollingsworth v. Perry, 570 U.S. 693, 710 (2013). And
because “a State defines itself as a sovereign” in part
through “the character of those who exercise
government authority,” Gregory v. Ashcroft, 501 U.S.
452, 460 (1991), a federal court has no basis to secondguess a State’s choices in determining which of its
agents are authorized to defend its interests in court.
These principles are illustrated in cases involving the
standing of state legislative officials, in which this
Court has “recognized that state legislators have
standing to contest a decision holding a state statute
unconstitutional if state law authorizes legislators to

7
represent the State’s interests.” Arizonans for Official
English v. Arizona, 520 U.S. 43, 65 (1987).
Accordingly, in Karcher v. May, 484 U.S. 72 (1987),
this Court held that New Jersey legislative officials
had standing on behalf of the legislature to defend the
validity of state law because “the New Jersey
Legislature had authority under state law to
represent the State’s interests.” Id. at 82. And in
Virginia House of Delegates v. Bethune-Hill, the Court
applied the same principles to determine that the
Virginia House of Delegates lacked standing to defend
state law because the State had not “designated the
House to represent its interests.” 139 S. Ct. at 1951.
While Karcher and Virginia House of Delegates
are standing decisions, there is no reason not to
extend them and the principles underlying them to
the intervention context. It would be strange indeed
to hold that a state-designated agent has standing to
assert the State’s interest in defense of state law but
nevertheless does not have the requisite interest to
intervene under Rule 24. It therefore follows that
when state law authorizes a state agent to defend
state law in litigation, that state agent has the
requisite interest in the litigation to be eligible for
intervention.
Potential for Impairment. Analysis of this factor is
straightforward. If a federal court enjoins
enforcement of a state statute, the State’s—and its
designated agent’s—interest in the continued
enforcement of that statute is impaired and impeded
entirely.
Adequacy of Representation. This Court’s decision
in Trbovich v. United Mine Workers of Am., 404 U.S.

8
528 (1972), forecloses any presumption that a State’s
interest in the validity of its statutes is adequately
represented by an existing party when State law
grants another agent the authority to represent the
State’s interest in federal court. In Trbovich, the U.S.
Secretary of Labor filed an action under the LaborManagement Reporting and Disclosure Act of 1959
(“LMRDA”) to set aside an election of union officers.
The LMRDA gave the Secretary of Labor exclusive
authority to challenge union elections in court and
“prohibit[ed] union members from initiating a private
suit to set aside an election.” Id. at 531. Despite this
vesting of exclusive authority in the Secretary, the
Court did not apply any presumption against the
union member who sought to intervene in Trbovich.
To the contrary, the Court held that Rule 24’s
requirement that a proposed intervenor’s interest not
be adequately represented by an existing party “is
satisfied if the applicant shows that representation of
his interest may be inadequate; and the burden of
making that showing should be treated as minimal.”
Id. n.10 (emphases added, quotation marks omitted).
And applying that standard, this Court held that
“there [was] sufficient doubt about the adequacy of
representation to warrant intervention” because the
Secretary of Labor served two functions—serving as
the union member’s “lawyer” and advancing the
broader public interest in “free and democratic union
elections”—that “may not always dictate precisely the
same approach to the conduct of the litigation.” Id. at
538–39.
Any presumption against intervention by a Statedesignated agent in defense of state law is
fundamentally incompatible with Trbovich. As




9
explained, in Trbovich federal law vested the
Secretary of Labor with the exclusive authority to
challenge union elections in federal court under the
LMRDA. In a constitutional challenge to a state
statute, by contrast, under Ex parte Young the state
officials named as defendants in federal court
generally will be executive branch officials charged
with implementing the challenged statute. If the
exclusive litigating authority in Trbovich did not give
rise to a presumption of adequate representation, the
happenstance that an official is charged with
implementing a challenged statute cannot give rise to
such a presumption. Furthermore, this Court in
Trbovich reasoned that the distinct roles played by
the Secretary of Labor could introduce competing
considerations into the Secretary’s approach to the
conduct of litigation. The same is true for state
officials responsible both for implementing a state law
and defending it in court. The responsibility to
implement a statute and the responsibility to defend
its validity “may not always dictate precisely the same
approach to the conduct of . . . litigation.” Id. at 539.
Indeed, execution of the law and defense of a
challenged law are different acts that implicate
different interests. In addition, the state executive
branch officials who typically are sued in federal court
may face distinct political pressures or incentives that
could affect their approach to the conduct of litigation
in a way different than the pressures or incentives
faced by a different agent of the State, such as a
representative of the legislative branch. It is no
surprise that disputes about intervention by statedesignated agents often arise in cases involving
controversial topics such as abortion or voting laws.
Just as in Trbovich, the people of a State—the

10
ultimate client when a state law is being challenged—
“may have a valid complaint about the performance
of” the official responsible for implementing a law who
must function as “[their] lawyer” in litigation
challenging it. Id. It follows that there cannot be any
presumption that such an official adequately
represents the interests of a State when another
state-designated agent seeks to intervene. Indeed,
under this Court’s precedents establishing that
“states have great deference in deciding who
represents their interests,” Berger, 2021 WL 2307483,
at *26 (Quattlebaum, J., dissenting), if there is going
to be a presumption in this context at all it should be
against adequate representation and in favor of
intervention by an agent a State deems necessary to
the defense of its statutes.
II.
While in the decision below the Sixth
Circuit failed properly to apply intervention law on
timeliness and to account for the Commonwealth of
Kentucky’s sovereign interest in the defense of its
laws, in the past the Sixth Circuit has been more
faithful to this Court’s precedents by following
Trbovich and not applying a presumption against a
state-designated agent’s attempt to intervene in a
lawsuit challenging state law. In Northeast Ohio
Coalition for the Homeless, 467 F.3d 999 (6th Cir.
2006), plaintiff organizations sued the Ohio Secretary
of State in federal court seeking an injunction against
Ohio voter ID provisions the Secretary was
responsible for implementing. The Secretary of State,
represented by the Ohio Attorney General’s Office,
unsuccessfully opposed the plaintiffs’ motion for a
temporary restraining order. While the Secretary
continued to oppose the plaintiffs’ preliminary

11
injunction motion after entry of the TRO, see
Defendant J. Kenneth Blackwell’s Memorandum in
Opposition to Preliminary Injunction, Northeast Ohio
Coalition for the Homeless v. Blackwell, No. 06-cv00896 (S.D. Ohio Oct. 31, 2006), ECF No. 29, he did
not wish to appeal the TRO. The Ohio Attorney
General therefore moved to intervene “on behalf of the
State of Ohio and the General Assembly, who wish[ed]
to participate in arguing the constitutionality of the
statutes at issue.” Northeast Ohio Coalition for the
Homeless, 467 F.3d at 1006. The district court denied
intervention, and the Attorney General appealed.
On appeal, the plaintiffs argued that the Attorney
General was required to “overcome [a] presumption of
adequate representation” due to the Secretary of
State’s presence in the case, id. at 1008, but the Sixth
Circuit rejected the argument. Instead, consistent
with Trbovich, it held that the Attorney General’s
“burden with respect to establishing that [the State’s]
interest is not adequately protected by the existing
party to the action is a minimal one; it is sufficient to
prove that representation may be inadequate.” Id.
(emphasis in original). And it held that the Attorney
General met this minimal burden because “the
Secretary’s primary interest is in ensuring the smooth
administration of the election, while the State and the
General Assembly have an independent interest in
defending the validity of Ohio laws and ensuring those
laws are enforced.” Id. The court accordingly reversed
the district court’s decision denying intervention.
The Fourth and the Seventh Circuits, in contrast
to the Sixth, have erred by creating robust
presumptions against state-designated agents

12
intervening when another state official is defending a
case. In Stuart v. Huff, 706 F.3d 345 (4th Cir. 2013),
the Fourth Circuit held that a private party seeking
to intervene alongside a government defendant
sharing the same ultimate objective must make a
“very strong showing” of inadequacy to overcome a
presumption of adequate representation. Id. at 351.
And then in Berger, 2021 WL 2307483, the en banc
court, by a 9–6 vote, extended the Stuart presumption
to situations in which state-designated agents seek to
intervene alongside other state officials. Id. at *14.
The Seventh Circuit has adopted an even stricter test,
requiring state-designated agents seeking to
intervene beside other state officials in defense of
state law to make “a concrete showing of . . . bad faith
or gross negligence before permitting intervention.”
Kaul, 942 F.3d at 801.
The practical consequences of the Fourth and
Seventh Circuit’s erroneous approaches are illumined
by comparing Northeast Ohio Coalition for the
Homeless, described above, in which the Sixth Circuit
held that Ohio’s Attorney General was entitled to
intervene on behalf of the State and its General
Assembly, and Berger, in which the Fourth Circuit
affirmed the denial of Amici’s motion to intervene.
Berger, like Northeast Ohio Coalition for the
Homeless, involves a challenge to a state voter ID law
brought against the state election officials responsible
for administering the law (the members of the North
Carolina State Board of Elections). The North
Carolina State Board of Elections, like the Secretary
of State in Northeast Ohio Coalition for the Homeless,
has made clear (in parallel state court litigation) that
it has “a primary objective . . . to expediently obtain




13
clear guidance on what law, if any, will need to be
enforced.” Joint Appendix Volume II at JA589, N.C.
State Conf. of NAACP v. Berger, No. 19-2273 (4th Cir.
Jan. 13, 2020), ECF No. 32-2. And Amici, like the Ohio
Attorney General in Northeast Ohio Coalition for the
Homeless, are “designate[d] . . . to represent [the
State’s] interests.” Berger, 2021 WL 2307483, at *22
(Niemeyer, J., dissenting). Indeed, North Carolina
law clearly “envisions a role for the General Assembly
when a state statute is under challenge.” Id. at *20
(Wilkinson, J., dissenting). “Whenever the validity or
constitutionality of an act of the General Assembly . .
. is the subject of an action in any . . . federal court,”
North Carolina law provides, “the Speaker of the
House of Representatives and the President Pro
Tempore of the Senate, as agents of the State through
the General Assembly, shall be necessary parties.”
N.C. GEN. STAT. § 120-32.6(b). Amici, therefore, “as
agents of the State, by and through counsel of their
choice, including private counsel, shall jointly have
standing to intervene on behalf of the General
Assembly as a party in any judicial proceeding
challenging a North Carolina statute.” Id. § 1-72.2(b).
To be sure, unlike the Ohio Secretary of State, the
North Carolina State Board of Elections Defendants
did not resist appealing an adverse interlocutory
order. But the Ohio Secretary of State’s resistance to
appeal was not essential to the Sixth Circuit’s
decision. As the Sixth Circuit made clear, “the
difference of opinion regarding whether to appeal the
TRO [was] merely illustrative of the underlying
divergent interests of the Secretary and the State.”
Northeast Ohio Coalition for the Homeless, 467 F.3d
at 1008. And the North Carolina State Board of




14
Elections and Amici have the same underlying
divergent interests—the interests in administering
the law and defending its continued validity and
enforceability, respectively.
For the reasons explained above, it is the Sixth
Circuit’s approach, and not the Fourth’s or the
Seventh’s, that is consistent with Rule 24, this Court’s
precedent, and the sovereign authority of States to
designate agents to defend their interests in court.
The Fourth Circuit’s and Seventh’s Circuit’s
approaches, furthermore, promote acrimony and
discord between state officials in federal court. That is
because rather than looking to objective factors such
as differences in function that could lead to different
approaches to litigation, and rather than requiring
only a minimal showing to justify intervention, the
Fourth and Seventh Circuits look to factors such as
“adversity of interest, collusion or nonfeasance,”
Berger, 2021 WL 2307483, at *28, or “bad faith or
gross negligence,” Kaul, 942 F.3d at 804, and impose
a strong presumption against intervention. Statedesignated agents seeking to intervene in the Fourth
and Seventh Circuits thus are presented with the
unappealing prospect of attacking the motives or
competence of their fellow state officials when seeking
to intervene alongside them. Federal courts should
avoid intervention standards that create incentives
for state officials to attack one another in federal
court.
III. There is an additional factor not present
in Northeast Ohio Coalition for the Homeless that puts
“extra icing on a cake already frosted,” Van Buren v.
United States, 141 S. Ct. 1648, 1661 (2021), in support

15
of intervention in Berger. That is the role of North
Carolina Governor Roy Cooper. While Governor
Cooper is no longer a defendant in Berger (he
successfully moved to dismiss the claims against him
as an improper defendant, see N.C. State Conf. of
NAACP v. Cooper, 397 F. Supp.3d 786, 802 (M.D.N.C.
2019)), he has constitutional authority to control the
State Board of Elections, see Cooper v. Berger, 809
S.E.2d 98, 111–12 (N.C. 2018). He accordingly
appoints the Board’s members, who serve at his
pleasure. See N.C. GEN. STAT. §§ 163-19(b), 163-28;
Cooper, 809 S.E.2d at 114 (declaring structure of prior
State Board unconstitutional in part because of the
Governor’s “circumscribed removal authority”).
Governor Cooper is an implacable foe of voter ID.
Shortly after his election as Governor, the State’s
then-new (and now current) Attorney General moved
to dismiss a petition for certiorari on behalf of the
Governor and others seeking review of a Fourth
Circuit decision enjoining the State’s prior voter ID
law. See North Carolina, 137 S. Ct. at 1399
(Statement of Roberts, C.J., respecting denial of
certiorari). This Court denied the petition after
considerable procedural wrangling, prompting the
Chief Justice to comment that “it is important to recall
our frequent admonition that the denial of a writ of
certiorari imports no expression of opinion upon the
merits of the case.” Id. at 1400 (cleaned up).
The citizens of North Carolina subsequently
amended their constitution to require voter ID, see
N.C. CONST. art. VI, § 3(2), and the General Assembly
enacted the State’s current voter ID law, SB 824, to
implement the amendment. SB 824 contains several




16
provisions that “go out of their way to make its impact
as burden-free as possible” and is “more protective of
the right to vote than other states’ voter-ID laws that
courts have approved.” N.C. State Conf. of NAACP v.
Raymond, 981 F.3d 295, 309–10 (4th Cir. 2020)
(cleaned up). The General Assembly was forced to
enact this generous law over Governor Cooper’s veto,
and in his veto message Governor Cooper made an
accusation that the law—which had an African
American Democrat as one of three primary
sponsors—had “sinister and cynical origins” and was
“designed to suppress the rights of minority, poor and
elderly voters.” Governor Cooper Vetoes Voter ID Bill,
Signs Two Additional Bills Into Law (Dec. 14, 2018),
https://bit.ly/3wzqWL3. Governor Cooper doubled
down in an amicus brief he filed in support of
plaintiffs in the Fourth Circuit (after, as explained
above, getting himself dismissed as a defendant in
district court), arguing that the preliminary
injunction entered in the case “should be made
permanent, and that this unconstitutional law should
never go into effect.” Br. of Governor Roy Cooper as
Amicus Curiae Supporting Pls-Appellees and
Affirmance, 2020 WL 4201325, at *3. The Fourth
Circuit, which allowed Amici to intervene in the
preliminary
injunction
appeal,
rejected
the
Governor’s argument and unanimously held that the
district court had abused its discretion in enjoining SB
824. See Raymond, 981 F.3d at 311. While Governor
Cooper has allowed the State Board of Elections to
defend SB 824 to date, given his past actions and his
expressed views on the law, there is no guarantee that
he will continue to do so or that he will permit the
State Board to seek review in this Court if necessary.




17
Governor Cooper’s role is an additional reason why
Amici are entitled to intervene.
***
In the decision under review in this case, the Sixth
Circuit essentially held that Attorney General
Cameron waited too long to intervene because he did
not seek to become a party until immediately after the
named defendant stopped defending state law. In
Berger, by contrast, the Fourth Circuit essentially
held that Amici’s motion to intervene was premature
because the named defendants had not yet stopped
defending state law. While the results of these
decisions cannot be reconciled, they share the common
underlying flaws of refusing to accord proper respect
to the sovereign interests of States in defending their
statutes and in failing properly to apply the law of
intervention. This Court should reverse the Sixth
Circuit’s decision below, and it should do so in a way
that does not prejudice Amici’s forthcoming petition
for review of the Fourth Circuit’s decision in Berger.
CONCLUSION
For the foregoing reasons, the question presented
should be answered in the affirmative, and the
decision below should be reversed.




18
June 21, 2021

Respectfully submitted,
David H. Thompson
Counsel of Record
Peter A. Patterson
Nicole J. Moss
COOPER & KIRK, PLLC
1523 New Hampshire
Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
dthompson@cooperkirk.com
Counsel for Amici Curiae











